Before the Committee on Science
Subcommittee on Space and Aeronautics
U.S. House of Representatives



For Release on Delivery
Expected at
2:00 p.m. EST
                          Observations on the
                          Progress and Actions
Wednesday
March 29, 2006
CC-2006-032

                          Needed to Address the
                          Next Generation Air
                          Transportation System


                          Statement of
                          David A. Dobbs, Assistant Inspector General
                           for Aviation and Special Program Audits
                          U.S. Department of Transportation
Mr. Chairman and members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) Joint Planning and Development Office (JPDO) and the plans for the next
generation air transportation system. Secretary Mineta has made these efforts a
top priority.

The JPDO was mandated by Congress to develop a vision for the next generation
air transportation system (NGATS) in the 2025 timeframe and coordinate diverse
agency research efforts. This office was established within FAA, and the National
Aeronautics and Space Administration (NASA), the Department of Commerce,
the Department of Defense (DOD), and the Department of Homeland Security are
participating in the JPDO. Thus far, we have focused primarily on the JPDO’s air
traffic management efforts that involve NASA, DOD, and Commerce.

There are a number of compelling reasons for moving toward the next generation
air transportation system. The current air transportation system has served the
nation well but FAA reports that the current system (or business as usual) will not
be sufficient to meet the anticipated demand for air travel or changes in the
industry. Last year, over 700 million passengers used the system, and this number
is forecasted to grow to over 1 billion by 2015. It is also important because much
of FAA’s current capital investment focuses on keeping things running—not new
initiatives.

In addition, there is an issue on the horizon that could have tremendous
implications for air traffic control—micro-jets (relatively inexpensive aircraft that
seat four to five people). FAA expects that over 100 micro jets will enter service
next year, growing by 400 to 500 per year through 2017.

Because of the forecasted growth in air travel, the JPDO needs to continue to work
on what can be done much sooner than the 2025 timeframe. We made this point
last year, and the JPDO is working on what new systems and procedures can be
fast tracked. It will be important for the JPDO to show tangible benefits to
airspace users from its efforts.

Overall, we found that progress has been made with the JPDO since the office was
established 2 years ago. The JPDO has established eight integrated product teams,
set up an NGATS institute to interface with industry, and provided Congress with
two progress reports. However, the cost and schedule of the next system remains
unknown, and considerable work remains to align Agency budgets and plans.

Today, I would like to focus on three points:



                                                                                   1
   • The JPDO’s critical role in leveraging resources for the next generation air
     transportation system.

   • Progress and challenges to date in aligning Agency budgets and plans.

   • Actions that will help the JPDO keep moving forward in both the short-and
     long-term.

The Important Role the JPDO Has in Leveraging Resources for the Next
Generation Air Transportation System
The JPDO is expected to develop a vision for the next generation system and has
established ambitious, much needed goals to accommodate three times more air
traffic and reduce FAA operating costs. The JPDO also expects a shift from
today’s ground-based system to an aircraft-based system and to obtain significant
controller productivity enhancements through automation. To do so, a multi-
agency approach—as outlined in Vision 100—is critical given the current deficit
environment, competition for Federal funds, and FAA’s tight budget. Moreover,
leveraging of scare resources is essential to get the most from each Federal
research dollar and prevent duplication.

There are a number of other reasons why the JPDO is looking to other agencies,
including the fact that FAA does not conduct much long-term air traffic
management research. Further, most of its current $2.5 billion capital account
goes for keeping things running (sustainment), not new initiatives.

FAA’s FY 2007 Budget Request for Research, Engineering, and Development
FAA is requesting $130 million for FY 2007, a decrease of $6.6 million from last
year’s appropriated level of $136.6 million. This includes $18 million specifically
for the JPDO. Figure 1 illustrates the makeup of the FY 2007 request by major
lines of effort.




                                                                                 2
As shown above, almost 70 percent of FAA’s research budget, or $88 million,
focuses on improving safety—not new air traffic management initiatives. This
includes projects on fire safety and aging aircraft systems, which focus on
preventing accidents and making them more survivable. The remaining funds are
requested for efficiency, environmental research, and mission support efforts.

FAA is also requesting research funds from its airport account for safety and
efficiency issues. FAA is requesting $17.8 million in FY 2007 for research in the
areas of, among other things, airport pavement and airport markings. In addition,
FAA is requesting $10 million in FY 2007 for airport cooperative research
projects with airports, including efforts to enhance safety and improve airport
lighting.

Perspectives on FAA’s Capital Account
FAA’s capital account—or the Facilities and Equipment (F&E) account—is the
principal vehicle for modernizing the National Airspace System. It represents
about 18 percent of the Agency’s FY 2007 budget request of $13.7 billion. For
FY 2007, FAA is requesting $2.5 billion for the F&E account, which is
$50 million less than last year’s appropriation. FAA has a long history of cost
growth, schedule slips, and performance shortfalls with its air traffic control
modernization efforts.




                                                                               3
As illustrated in Figure 2, only about 55 percent of FAA’s FY 2007 request for
F&E (or $1.4 billion) will actually go for acquiring air traffic control systems.
The remaining funds will be spent on personnel, mission support, and facilities.




As we have noted in the past, the majority of FAA’s capital account now goes for
keeping things running (i.e., sustainment), not new initiatives. A review of the top
10 projects by dollar amount in the FY 2007 request shows some projects will
form important platforms for JPDO initiatives. For example, the $2.1 billion En
Route Automation Replacement Program is replacing the current software and
hardware for facilities that manage high-altitude traffic. Attachment A provides
details on key, ongoing modernization programs that will likely play a role in
JPDO efforts.

However, the bulk of funds are requested for projects that have been delayed for
years, as well as for efforts to improve or maintain FAA facilities or replace
existing radars. It is important to recognize that FAA’s existing investments will
heavily influence NGATS requirements and schedule. FAA will have to assess
how JPDO plans affect ongoing acquisition projects and determine which ones
need to be accelerated or re-scoped.

There are a number of reasons why there is so much discussion about the next
generation air traffic management system. For example, over the last several
years, FAA has deferred or cancelled a number of projects as funding for the
capital account has remained essentially flat. This includes efforts for a new air-
to-ground communication system, controller-pilot data link communications, and a
new satellite-based precision landing system.


                                                                                  4
Notwithstanding a tight budget, FAA is requesting funds for two projects in the
F&E account that are considered “building blocks” for the next generation system
and have potential for enhancing capacity and reducing delays. These are not new
programs, per se, and have been under development or been funded in previous
budgets.

   • Automatic Dependent Surveillance-Broadcast (ADS-B) is a satellite-based
     technology that allows aircraft to broadcast their position to others. In
     FY 2007, FAA is requesting $80 million for this satellite-based technology.
     In prior budgets, ADS-B was funded under the Safe Flight 21 Initiative,
     which demonstrated the potential of ADS-B and cockpit displays in Alaska
     and the Ohio River Valley. FAA expects to make a decision about how
     quickly to implement ADS-B and at what cost later this year. Airspace
     users will have to equip with the new avionics to get benefits, and FAA
     may have to rely on rulemaking initiatives to help speed equipage. This
     illustrates why the JPDO must address complex policy issues as well as
     research.

   • System Wide Information Management (SWIM) is a new network
     information architecture that will allow airspace users to access a wide
     range of information on the status of the National Airspace System and
     weather conditions securely and seamlessly. It is analogous to an internet
     system for all airspace users. FAA is requesting $24 million for this
     program in FY 2007.

FAA Has Historically Relied on NASA for Long-term Air Traffic Management
Research
NASA makes a significant investment in aviation research and is requesting
$724 million for aeronautics research in FY 2007, less than last year’s
appropriated level of $884 million. Although NASA is in the process of
restructuring its aeronautics research portfolio, officials are committed to
supporting JPDO efforts. Table 1 illustrates NASA investments in aeronautics
research for FY 2005 and FY 2006, as well as its request for FY 2007.




                                                                              5
             Table 1. NASA Funding For Aeronautics Research
                           (Dollars in Millions)

       NASA             FY 2005           FY 2006             FY 2007
     Aeronautics      Operating Plan    Operating Plan     Budget Request
      Research
    Fundamental          $630                $562              $447
    Aeronautics
    Airspace              149                 174               120
    Systems
    Aviation Safety       183                 148               102

    Aeronautics             0                   0                 55
    Test Program
     Total               $962                $884              $724

   Source: NASA


FAA had close ties with NASA before the establishment of the JPDO, and we see
this relationship continuing. FAA and NASA have different roles. While FAA
focuses its research and development efforts (in both the research and capital
accounts) on the near-term, NASA focuses on long-term, cutting-edge
technologies. In fact, NASA has conducted the majority of long-term research for
air traffic management. FAA has also looked to DOD in the past for developing
aerospace concepts and technologies, including the Global Positioning System.
Attachment B provides information on potential agency contributions to the JPDO
and each agency’s areas of expertise.

Progress Is Being Made in Coordinating Diverse Agency Efforts but
Considerable Work Remains To Align Agency Budgets and Plans
The law requires the JPDO to coordinate and oversee research that could play a
role in NGATS. Central to the JPDO’s mission—and making it an effective multi-
agency vehicle—is alignment of agency resources. This is a complex task, and the
law provides no authority for the JPDO to redirect agency resources.

The Secretary of Transportation has played an important role in coordinating
various efforts by chairing the Senior Policy Committee. This committee was
established by Vision 100 and includes, among others, deputy secretary level
representatives from Commerce and Homeland Security, as well as the Secretary
of the Air Force. It also includes the FAA and NASA Administrators. This
committee provides high-level guidance, resolves policy issues, and identifies



                                                                              6
resource needs. Each participating agency conducts research tailored for its
specific mission.

The JPDO’s March 2006 progress report to Congress outlined various
accomplishments to date, including the establishment of multi-agency teams and
the NGATS institute (a mechanism for interfacing with the private sector).
However, the report did not provide details on specific ongoing research projects
or funding that the JPDO expects to leverage at FAA or other agencies. Without
this information, it is difficult to assess progress with alignment of budgets.

The majority of JPDO’s work is done through eight Integrated Product Teams
(IPT) that focus on eight strategies, such as how to use weather information to
improve the performance of the National Airspace System. The teams are
composed of FAA, other Federal agencies, and the private sector. Attachment C
provides details on the JPDO’s IPTs and their major areas of emphasis.

The National Research Council recently examined JPDO plans and was critical of
the IPT structure. The Council’s report found that even though the teams have
multi-agency participation, they are functioning primarily as experts in specific
disciplines rather than as cross-functional, integrated, multidisciplinary teams
organized to deliver specific products. One of the report’s recommendations was
that the IPTs be reduced in number and made more “product driven.” Although
we have not reached any conclusions on how to best structure the IPTs, we do
agree that a more product-driven focus would be an important step forward.

Our work on three important IPTs shows that there is considerable coordination
but little alignment of agency budgets to date. Moreover, the IPT leaders have no
authority to commit agency resources to JPDO efforts and often have no products
other than plans. The following illustrates progress and challenges to date with the
three IPTs we examined in detail.

   • The Weather IPT is led by the National Oceanic Atmospheric
     Administration (NOAA), an agency of the Department of Commerce.
     FAA, NASA, DOD, and NOAA are all conducting weather research
     tailored for their specific missions. Thus far, this team’s efforts have
     focused on contributions to FAA’s Traffic Flow Management Program
     (which assists traffic managers to optimize air traffic by working with
     airlines). NOAA is also helping the JPDO refine its concept of a fully
     automated system. Integrating new, up-to-date weather forecast systems
     into planned automation efforts will be challenging.

      We note that JPDO has not yet determined if a considerable amount of
      applied research and development conducted by NOAA at the Office of


                                                                                  7
          Atmospheric Research and the National Environmental Satellite Data and
          Information Service could be leveraged for next generation initiatives. We
          have shared our concerns about effectively leveraging weather research
          with the JPDO, which recognizes it can do a better job.

      • The Shared Situational Awareness IPT is led by DOD. All participating
        agencies are adopting network-centric systems. 1 As noted earlier, FAA is
        developing its own network system called SWIM. While there are
        considerable opportunities for leveraging net-centric efforts, there is also
        potential for duplication of effort. Challenges here focus on taking an
        approach pioneered by DOD and applying it specifically to air traffic
        control to get benefits in terms of enhanced capacity and delay reduction.

          An active role by DOD is vital because it is both a provider and a consumer
          of air traffic services. Thus far, work with this IPT has focused almost
          exclusively on maximizing agency network capabilities in DOD, such as
          the Global Information Grid, which is a net-centric communication system
          DOD is developing for global use. Moreover, DOD’s real-world
          experiences and lessons learned in sharing data (from air and ground
          systems) in actual operations and in real-time have not been tapped and will
          prove invaluable in reducing cost and technical risks in developing the next
          generation system.

      • The Air Traffic Management IPT is led by NASA. It is expected to play a
        key role by helping develop the automated systems to boost controller
        productivity. FAA has neither planned nor budgeted for this type of
        research. Major challenges focus on establishing requirements and gaining
        a full understanding of the risks associated with developing and acquiring
        these new software-intensive systems before making financial
        commitments. This is important because future automation efforts will be a
        major cost driver for the next generation system.

          We see potential for the most progress with coordination and alignment
          between the JPDO and NASA. Even though NASA is restructuring its
          aeronautical research program and spending less than in the past, the JPDO
          and NASA are working on several complex concepts for new automation
          systems and the timing of research efforts. This work will be funded via
          NASA efforts associated with “airspace systems.” However, experience
          shows that NASA will need a much clearer picture of FAA’s
          requirements—and when prototypes would be needed—to better support
          the next generation system.

1
    A net-centric system uses internet protocols to transfer data.


                                                                                    8
Several Actions Are Critical for the JPDO To Make Progress in Both the
Short- and Long-Term
Key questions for FAA and the JPDO focus on what the new office can deliver,
when, and how much it will cost. They are central questions in the discussion
about how to best finance FAA and will shape the size, requirements, and
direction of the capital program for the next decade. We understand that the JPDO
is planning to conduct workshops with industry to help determine the costs,
requirements, and milestones associated with the next generation system.

Moving to the next generation system is important to meet the demand for air
travel, change the way FAA provides services, and reduce Agency costs.
However, it is also a high-risk effort, given the complexity of the task and the
policy and regulatory issues that must be addressed. To make progress, several
steps are needed.

      • Leadership. The position of the JPDO Director is currently vacant—FAA
        needs to find the right person to lead this effort. The JPDO does not have
        authority to redirect agency resources. The former JPDO director was also
        the director of the Air Traffic Organization’s (ATO) planning organization.
        We think experience has shown that one person cannot effectively do both
        jobs because of complex technical issues and important policy decisions
        facing FAA and the JPDO. Leadership will be important to bridge the gap
        between the ATO’s near-term planning horizon and the JPDO’s longer-
        term mission to transform the National Airspace System.

      • Developing and Implementing Mechanisms for Alignment. As noted
        earlier, much work remains to align agency budgets. There is a need for
        mechanisms to help the JPDO align diverse agency efforts over the long
        haul.

          The JPDO recognizes that more needs to be done and is working with the
          Office of Management and Budget (OMB) to develop an integrated budget
          document that provides a single business case (a document similar to the
          “OMB Form 300”) to make sure efforts are indeed aligned.2 As part of
          this, JPDO has promised to provide OMB in the next several months with
          an architecture for the next generation system, as well as a specific list of
          programs in other agency budgets it intends to leverage. We will follow up
          on this step during our ongoing audit.


2
    OMB Form 300 was established as a source of information on which decisions about budgetary resources
    consistent with Administration priorities, planning, management and use of capital investments are
    consistent with OMB policy and guidance.


                                                                                                      9
          JPDO’s ongoing efforts to develop an enterprise architecture, 3 or overall
          blueprint for the next generation system, will help in setting goals,
          supporting decisions, adjusting plans, and tracking agency commitments.
          The architecture will also show requirements from FAA and the
          Departments of Defense and Homeland Security and where various agency
          efforts fit in the next generation system. It will prove helpful in the future
          in resolving difficult policy decisions, including who pays for what
          elements of the system.

          JPDO is taking an incremental approach to architecture development and
          plans to have an initial version this summer. However, considerable work
          remains to link current systems with future capabilities and develop
          technical requirements, particularly for new concepts for automation.

          Until these actions are taken, it will be difficult for the Congress and
          aviation stakeholders to determine if the JPDO is leveraging the right
          research, if funding is adequate for specific efforts, or how projects will
          improve the U.S. air transportation system and at what cost. Therefore, we
          think the JPDO should include in its periodic reports to Congress a table of
          specific research projects with budget data of other agencies it is leveraging
          and how that ongoing research is supporting the JPDO.

      • Examining Barriers to Transforming the National Airspace System That
        Have Impacted Past FAA Programs and How They Can Be Overcome.
        Our work on many major acquisitions shows the importance of clearly
        defined transition paths, expected costs (for both FAA and airspace users),
        and benefits in terms of reduced delays. This is particularly the case for
        initiatives that call airspace users to equip with new avionics.

          For example, FAA cancelled the controller-pilot data link communications
          program specifically because of uncertain benefits, concerns about user
          equipage, cost growth, and the impact on the Agency’s operations account.
          The inability to synchronize data link with other modernization efforts,
          such as the multi-billion dollar En Route Automation Replacement Program
          was also a factor.

          Other critical barriers to be overcome include how to ensure new systems
          are certified as safe for pilots to use and getting the critical expertise in
          place at the right time. Problems with FAA’s multi-billion Wide Area

3
    Enterprise Architecture can be viewed as a blueprint that links an enterprise’s strategic plan to the
    programs and supporting systems in terms of interrelated business processes, rules, and information
    needs. This includes the transition from the “as-is” to the “to-be” environment.


                                                                                                     10
   Augmentation System (a new satellite navigation system) that led to cost
   growth and schedule slips were directly traceable to problems in certifying
   the new satellite-based system.

• Developing a Strategy for Technology Transfer. Technology transfer—the
  movement of technology from one organization to another—is a central
  issue for the JPDO because the law envisions new capabilities developed
  by other Federal agencies (or the private sector) being transitioned into the
  National Airspace System. The JPDO will have to pay greater attention to
  this matter as it moves forward.

   Our past work shows that FAA has experienced mixed success in
   transitioning systems developed by others into the National Airspace
   System. For example, FAA ultimately abandoned work on a new controller
   tool developed by NASA (the Passive Final Approach and Spacing Tool)
   for sequencing and assigning runways to aircraft because of complex
   software development and cost issues. As we noted in our review of
   FAA’s Free Flight Phase 1 Program, the use of “technology readiness
   levels” could be useful to help assess maturity of systems and ease issues
   associated with the transfer of technology. Both NASA and DOD have
   experience with categorizing technical maturity. This could help reduce
   cost, schedule, and technical risk with implementing JPDO initiatives.

• Conducting Sufficient Human Factors Research To Support Anticipated
  Changes. The JPDO is planning to make fundamental changes in how the
  system operates and how controllers manage traffic to accommodate three
  times more aircraft in the system. Currently, the union that represents
  controllers is not yet participating in JPDO efforts for a variety of reasons.

   History has shown that insufficient attention to human factors can increase
   the cost of acquisition and delay much needed benefits. For example,
   problems in the late 1990s with FAA’s Standard Terminal Automation
   Replacement System were directly traceable to not involving users early
   enough in the process.

   The need for focused human factors research extends well beyond the
   traditional computer-machine interface (such as new controller displays)
   and has important workforce and safety implications. For example, FAA
   expects the controller’s role to change from direct, tactical control of
   aircraft to one of overall traffic management. There also will be significant
   human factors concerns for pilots, who will be expected to rely more on
   data link communications. It will be important to have sufficient human



                                                                             11
factors analysis and studies to ensure that the changes envisioned by the
JPDO can be safely accommodated.

Mr. Chairman, that concludes my statement. I would be happy to answer
any questions you or other members of this Subcommittee might have.




                                                                      12
Attachment A. Key Platforms

       System                                 Status and Key Issues
 Terminal                  FAA has struggled with how to complete terminal
 Modernization:            modernization. STARS, which so far has cost of $1.3 billion
 Standard Terminal         for only 47 sites, was envisioned as the centerpiece of terminal
 Automation                modernization. Because of technical problems and schedule
 Replacement System        delays with it, FAA decided to deploy another system,
 (STARS), Common           Common ARTS, as an interim solution at over 140 facilities in
 Automated Radar           several configurations. FAA is rethinking its approach to
 Terminal System           terminal modernization and recently decided to field STARS to
 (Common ARTS):            only 5 additional sites. A decision affecting the remaining
 Controller work-          100-plus sites has been postponed for over a year. FAA needs
 stations that process     to resolve how it will complete terminal modernization and
 surveillance data and     what additional capabilities will be needed as it works with the
 display it on the         JPDO.
 screen to manage air
 traffic in the terminal
 environment.
 En Route                  With an estimated cost of $2.1 billion, ERAM is one of the
 Automation                largest and most complex acquisitions in FAA’s modernization
 Modernization             portfolio. Progress is being made with the first ERAM
 (ERAM):                   deliverable—a backup system for the Host computer.
 Replaces the Host         However, the bulk of the work focuses on development of the
 computer hardware         first major ERAM software release, which involves developing
 and software              over 1 million lines of code. A number of new capabilities
 (including the Host       (dynamic airspace management and data link) depend on future
 backup system) and        enhancements to ERAM that have yet to be defined or priced.
 associated support
 infrastructure at 20
 En Route Centers.




                                                                                        13
Attachment A. Key Platforms (continued)

       System                                 Status and Key Issues
 FAA                       FTI is FAA’s effort to transition from multiple telecom-
 Telecommunications        munication networks to a single new network for the purpose
 Infrastructure            of reducing operating costs. FTI is expected to replace about
 (FTI): FTI is             25,000 existing telecommunications services and circuits at
 designed to replace       more than 4,400 facilities. FAA re-baselined FTI in December
 existing telecom-         2004, increasing lifecycle costs from $1.9 billion to $2.4 billion
 munications networks      and adding 5 years to the life of the program. However, FTI is
 with one new network      not likely to be completed on schedule in December 2007
 through a phased          because FAA does not have a realistic master schedule or
 process. A single         effective transition plan identifying when each site and service
 provider is               will be accepted, when services will be cut over to FTI, and
 responsible for           when existing services will be disconnected. Through the end
 acquiring, operating      of FY 2005, FTI equipment was installed at about 700 sites,
 and maintaining the       and only about 3 percent of the 25,000 FTI services were
 new telecommuni-          operational, leaving a vast amount of costly existing equipment
 cations infrastructure.   still being sustained. As a result, expected FTI cost reduction
                           benefits are eroding. To address the schedule risk, FAA needs
                           to develop a realistic master schedule and incorporate it into
                           the FTI contract to hold the prime contractor accountable.
                           Successful FTI implementation is critical to many other
                           programs such as System Wide Information Management
                           (SWIM) system and ERAM.
 Traffic Flow              TFM Infrastructure products and services are designed to
 Management (TFM)          support the Traffic Management Specialists (TMS) and Traffic
 is an FAA initiative      Management Coordinators (TMC) to optimize air traffic flow
 to modernize the          across the National Air Space System. The TMS and TMC
 hardware and              planners analyze, plan, and coordinate air traffic flow through
 software used to          continuous coordination with the airlines and the use of
 manage the flow of        surveillance sources, weather, automation, and display
 air traffic.              subsystems.




                                                                                          14
Attachment B. Potential Agency Contributions

The following table provides perspectives on the wide range of research being
conducted at agencies for their specific missions that participate in the JPDO. We
note that only some of the ongoing research will be applicable to the JPDO’s
efforts.

   Agency                              Key Area of Leverage
 DOD              DOD has an extensive and diverse Research and
                  Development (R&D) base, including research in new aircraft,
                  composites, imaging systems, and data exchange systems for
                  all services. DOD has requested $73.1 billion overall for
                  R&D in FY 2007. The JPDO is particularly interested in
                  DOD’s broadband communication networks, such as the
                  Global Information Grid. DOD planned upgrades to the
                  Global Positioning System Constellation will be critical to
                  civil aviation.
 Commerce /       Commerce is requesting $1.06 billion for research in
 NOAA             FY 2007. NOAA is a part of Commerce and is responsible
                  for the National Weather Service; the National Environmental
                  Satellite, Data and Information Service; and Oceanic and
                  Atmospheric Research. NOAA requested $533 million in
                  FY 2007 for R&D. The JPDO is seeking from NOAA
                  probability weighted forecast capabilities, a national uniform
                  weather database of forecasts and observations, and
                  transparent automatic adjusted traffic management for
                  weather.
 NASA             For years, NASA has conducted the majority of long-term Air
                  Traffic Management research, including automated controller
                  tools and human factors work. NASA has requested
                  $724 million for FY 2007 on aeronautical R&D. The JPDO
                  is looking to NASA to develop automated aircraft metering
                  and sequencing, and dynamic airspace reconfiguration.
 Department       DHS contributes expertise in the areas of security and net-
 of Homeland      centric initiatives. The Agency has requested $1 billion in
 Security         FY 2007 for Science and Technology R&D. FAA is looking
 (DHS)            to DHS to develop automated passenger and cargo screening,
                  hardened aircraft security, and flight control overrides.




                                                                                15
Attachment C. Integrated Product Teams

IPTs are multi-agency teams that are defining the specific concepts, and
capabilities and coordinating the actions necessary to make possible the
transformation in each of the eight strategies articulated in the NGATS Integrated
Plan.

          1. Develop Airport Infrastructure To Meet the Future Demand – FAA
          2. Establish an Effective Security System Without Limiting Mobility or
             Civil Liberties – DHS
          3. Establish an Agile Air Traffic System – NASA
          4. Establish User-Specific Situational Awareness – DOD
          5. Establish a Comprehensive Proactive Safety Management Approach
             – FAA
          6. Develop Environmental Protection That Allows Sustained Aviation
             Growth – FAA
          7. Develop a System-Wide Capability To Reduce Weather Impacts –
             Commerce/NOAA
          8. Harmonize Equipage and Operations Globally – FAA




                                                                               16
